APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the District of Columbia
Circuit
(July 10, 2020). . . . . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States Court
of Appeals for the District of Columbia
Circuit
(July 10, 2020). . . . . . . . . . . . . . . App. 20
Appendix C Memorandum Opinion in the United
States District Court for the District of
Columbia
(March 31, 2019) . . . . . . . . . . . . . App. 22
Appendix D Order in the United States District
Court for the District of Columbia
(March 31, 2019) . . . . . . . . . . . . . App. 32
Appendix E Order in the United States Court of
Appeals for the District of Columbia
Circuit
(August 28, 2020) . . . . . . . . . . . . App. 34
Appendix F Order in the United States Court of
Appeals for the District of Columbia
Circuit
(August 28, 2020) . . . . . . . . . . . . App. 36

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-7040
[Filed: July 10, 2020]
_________________________________
VIPULA D. VALAMBHIA, ET AL.,
)
APPELLANTS
)
)
v.
)
)
UNITED REPUBLIC OF TANZANIA,
)
ET AL.,
)
APPELLEES
)
_________________________________)
Argued February 10, 2020

Decided July 10, 2020

Appeal from the United States District Court
for the District of Columbia
(No. 1:18-cv-00370)
Meredith B. Parenti argued the cause and filed the
briefs for appellants.
Lawrence H. Martin argued the cause for appellees.
With him on the brief were Clara E. Brillembourg and
Nicholas M. Renzler.
Before: GARLAND, PILLARD, and KATSAS, Circuit
Judges.

App. 2
Opinion for the Court filed by Circuit Judge
PILLARD.
PILLARD, Circuit Judge: The High Court of
Tanzania twice ordered the United Republic of
Tanzania to pay Devram P. Valambhia and family
more than $50 million to satisfy the Valambhias’ share
of a 1985 contract for military equipment. In 2018,
members of the Valambhia family filed an action to
recognize the High Court’s judgments in the District of
Columbia. The district court granted Tanzania’s motion
to dismiss the amended complaint for lack of subject
matter jurisdiction under the commercial activity
exception to the Foreign Sovereign Immunities Act
(FSIA), 28 U.S.C. § 1605(a)(2). We affirm the district
court’s dismissal.
BACKGROUND
Because this case was resolved on a motion to
dismiss, we accept the amended complaint’s factual
allegations as true and construe all reasonable
inferences in the plaintiffs’ favor. See, e.g., Schubarth
v. Fed. Republic of Germany, 891 F.3d 392, 395 (D.C.
Cir. 2018). We “consider documents attached to or
incorporated in the complaint,” He Depu v. Yahoo! Inc.,
950 F.3d 897, 901 (D.C. Cir. 2020) (internal quotation
marks omitted), to the extent the plaintiffs intend
incorporation, see, e.g., Banneker Ventures, LLC v.
Graham, 798 F.3d 1119, 1132-33 (D.C. Cir. 2015).
The amended complaint alleges that Tanzania,
through its Ministry of Defence, contracted in 1985 to
purchase troop carriers, tanks, and other military
goods from Transport Equipment Limited (TEL), an

App. 3
Irish corporation that Devram P. Valambhia directed.
See Am. Compl. ¶ 12 (J.A. 8). Between 1986 and 1989,
Tanzania allegedly made the required contractual
payments, but then a “dispute arose between TEL and
Valambhia as to amounts owed to Valambhia under the
contract,” and the “Bank [of Tanzania] stopped making
payments to Valambhia.” Id. ¶ 13 (J.A. 8).
In January 1989, Valambhia and TEL attempted to
resolve their differences by entering into an
“Irrevocable Agreement.” Id. ¶ 14 (J.A. 8). Under its
terms, TEL agreed “irrevocably [and] unconditionally
. . . to surrender fully a total percentage of 45% of the
[net] amount received” under the 1985 contract, plus
interest and fees, to “Mr. D.P. Valambhia and family.”
Am. Compl. Ex. B (Irrevocable Agreement) (J.A. 46).
The Irrevocable Agreement calculated that the sum
owed to the Valambhias at that time was “50,610,495
U.S.D.” Id. A few months later, the Tanzanian
government signaled its amenability to the
arrangement between TEL and the Valambhias. First,
in May 1989, the Bank of Tanzania acknowledged
receipt of the Irrevocable Agreement in a letter sent to
“D.P. Valambhia & Family” at a Dar Es Salaam
address. Then, in June 1989, the Ministry of Defense
followed suit, agreeing with TEL to honor the
Irrevocable Agreement, and to “accordingly take with
immediate effect all necessary steps to pay directly to
the said D.P. Valambhia 45% of all payments due and
payable” under the 1985 contract. “Shortly thereafter,”
the amended complaint alleges, the “Ministry of
Defence and the Bank [of Tanzania] began to pay
Valambhia some of the amounts owed to him under the

App. 4
contract from the Ministry’s Federal Reserve Bank of
New York account.” Am. Compl. ¶ 15 (J.A. 9).
Tanzania’s compliance was apparently short-lived,
likely due to continuing disagreements between TEL
and Valambhia. In August 1989, TEL filed suit against
Valambhia in Tanzania, seeking a judgment requiring
the Bank of Tanzania to pay to TEL and not Valambhia
the balance of the money owed—notwithstanding the
Irrevocable Agreement and Tanzania’s acceptance of it.
The Tanzanian courts considered that claim for the
next fourteen years, with Tanzania itself participating
at various stages of the litigation. See Am. Compl. ¶ 17
(J.A. 9). According to the amended complaint, Tanzania
used this “notorious and highly publicized series of
court proceedings in Tanzania” to “avoid paying
Valambhia.” Id.
Nonetheless, the High Court of Tanzania made
clear in two judgments issued during the litigation that
Tanzania was required to honor its decision to pay the
sum owed to Valambhia under the Irrevocable
Agreement. First, in a 1991 decree, the High Court
concluded that “[Valambhia] and his family are
[en]titled to be paid 45% of the proceeds of the money
due and payable by the Government of United Republic
of Tanzania to [TEL] pursuant to the [1985] contract.”
Am. Compl. Ex. H at 2 (J.A. 80) (High Court Decree).
In light of that conclusion, the High Court decreed that
the Tanzanian government “shall pay the proceeds as
at the 10th June, 1989”—the date on which the
Ministry of Defence agreed to honor the Irrevocable
Agreement—“together with interests, arrears,
Management fees, service charges surcharges etc.

App. 5
direct to [Valambhia] and his family as per the said
agreement.” Id.
Second, in 2001, the High Court issued a Garnishee
Order to the Bank of Tanzania to enforce its 1991
decree, ordering the Governor of the Bank to pay
Valambhia the sum of “US $ 55,099,171.66 . . . to the
Registrar, High Court of Tanzania Dar es Salaam
immediately.” Am. Compl. Ex I at 1 (J.A. 82)
(Garnishee Order). Tanzania contested the validity of
the Garnishee Order for the next several years, but the
courts rejected those challenges. See Am. Compl.
¶¶ 20-22 (J.A. 10-11). Yet, despite two judgments from
its own courts requiring payment, Tanzania never paid
the amount owed, id. ¶ 23 (J.A. 11), and the family
alleges that Devram Valambhia “passed away broken
and penniless in Dar es Salaam in 2005,” id. ¶ 24 (J.A.
12).
In May 2018, Devram Valambhia’s wife and
children, residents of the United States since 1981 and
U.S. citizens since 2001, id. ¶ 12 (J.A. 8), sued the
United Republic of Tanzania, the Bank of Tanzania,
and the Tanzanian Ministry of Defence (collectively,
Tanzania), seeking our district court’s recognition of
the two Tanzanian High Court judgments under the
District of Columbia’s Uniform Foreign-Country Money
Judgments Recognition Act of 2011, D.C. Code
§§ 15-361 et seq. The Valambhias attached to their
amended complaint the numerous agreements and
judicial decisions relevant to this case, including the
contract for military equipment between Tanzania and
TEL from 1985, the Irrevocable Agreement between
TEL and Valambhia from January 1989, the Bank of

App. 6
Tanzania’s acknowledgment of the Irrevocable
Agreement from May 1989, the Ministry of Defence’s
agreement to honor the Irrevocable Agreement from
June 1989, and several rulings of the High Court of
Tanzania.
Later the same month, Tanzania filed a motion to
dismiss for lack of subject matter jurisdiction under the
FSIA and for failure to state a claim. The district court
granted the motion and dismissed the Valambhias’ case
on foreign sovereign immunity grounds, see Valambhia
v. United Republic of Tanzania, No. 18-cv-370, 2019
WL 1440198, at *4 (D.D.C. Mar. 31, 2019), and the
Valambhias timely appealed.
ANALYSIS
We review de novo the district court’s dismissal of
the amended complaint for lack of subject matter
jurisdiction under the FSIA. Schubarth, 891 F.3d at
398. Where, as here, the “defendant contests only the
legal sufficiency of plaintiff’s jurisdictional claims, the
standard is similar to that of Rule 12(b)(6), under
which dismissal is warranted if no plausible inferences
can be drawn from the facts alleged that, if proven,
would provide grounds for relief.” Id. (internal
quotation marks omitted). We begin by considering the
Valambhias’ primary argument that subject matter
jurisdiction may be established under clause three of
the FSIA commercial activity exception. We then turn
briefly to the Valambhias’ remaining arguments.

App. 7
I. Clause Three of the FSIA Commercial Activity
Exception
The “Foreign Sovereign Immunities Act ‘provides
the sole basis for obtaining jurisdiction over a foreign
state in the courts of this country.’” OBB
Personenverkehr AG v. Sachs, 136 S. Ct. 390, 393
(2015) (quoting Argentine Republic v. Amerada Hess
Shipping Corp., 488 U.S. 428, 443 (1989)). Foreign
states are ‘“presumptively immune from the
jurisdiction of United States courts’ unless one of the
Act’s express exceptions to sovereign immunity
applies.” Id. at 394 (quoting Saudi Arabia v. Nelson,
507 U.S. 349, 355 (1993)). Here, the Valambhias
contend that their claim is based on conduct that falls
within the FSIA commercial activity exception, leaving
Tanzania without immunity. That exception provides:
A foreign state shall not be immune from the
jurisdiction of courts of the United States or of
the States in any case . . . in which the action is
based [1] upon a commercial activity carried on
in the United States by the foreign state; or
[2] upon an act performed in the United States
in connection with a commercial activity of the
foreign state elsewhere; or [3] upon an act
outside the territory of the United States in
connection with a commercial activity of the
foreign state elsewhere and that act causes a
direct effect in the United States.
28 U.S.C. § 1605(a)(2). The amended complaint
primarily alleges that clause three of the commercial
activity exception applies and abrogates Tanzania’s
immunity.

App. 8
Clause three requires a plaintiff to show that her
lawsuit is “(1) ‘based . . . upon an act outside the
territory of the United States’; (2) that was taken ‘in
connection with a commercial activity’ of [a foreign
government] outside this country; and (3) that ‘cause[d]
a direct effect in the United States.’” Republic of
Argentina v. Weltover, Inc., 504 U.S. 607, 611 (1992)
(quoting 28 U.S.C. § 1605(a)(2)). With respect to the
first requirement, the Valambhias claim that the
relevant “act[s] outside the territory of the United
States” are the High Court judgments confirming
Tanzania’s liability to pay the share owed to the
Valambhias under the Irrevocable Agreement, as well
as Tanzania’s subsequent “failure to pay the amounts
due under the Tanzanian Judgment[s] and the contract
on which it is based.” Am. Compl. ¶ 32 (J.A. 14); see
also, e.g., Valambhias Br. 25 (“Looking to the core of
this suit, at its most essential, it is based upon the act
of entering a judgment in Tanzania.”). The Valambhias
contend the second requirement is also met because the
High Court judgments (and Tanzania’s withholding of
payment) were “in connection with” the underlying
commercial activities of contracting in 1985 “to provide
military equipment,” and the “Bank’s continued
holding of, and failure to pay, the funds due” under
that commercial contract. Id. ¶¶ 32-33 (J.A. 14).
We need not consider the “merit of [the plaintiffs’]
arguments regarding the first two requirements”
because we “conclude that [their] claim fails the final
one.” Peterson v. Royal Kingdom of Saudi Arabia, 416
F.3d 83, 90 (D.C. Cir. 2005). To satisfy the third
requirement, a plaintiff must show that the “act[s]
outside the territory of the United States” asserted to

App. 9
satisfy the first requirement “cause[d] a direct effect in
the United States.” 28 U.S.C. § 1605(a)(2). In
evaluating this direct-effect requirement, our
touchstone is the Supreme Court’s decision in Republic
of Argentina v. Weltover. In that case, the Court
considered whether Argentina’s unilateral rescheduling
of certain bond payments caused a “direct effect” in the
United States. Weltover, 504 U.S. at 618-19. Crucially,
the Court held that an “effect is ‘direct’ if it follows as
an immediate consequence of the defendant’s activity.”
Id. at 618 (internal quotation marks and alteration
omitted). The effect need not be “substantial” nor
“foreseeable,” but it must not be “purely trivial” or
“remote and attenuated.” Id. Neither of the alleged
direct effects satisfies this standard.
A. The Ministry of Defence’s Use of a New
York Bank Account
First, the Valambhias allege that Tanzania’s use of
a New York bank account to pay them in the 1980s
constitutes a direct effect in the United States of the
judgments holding Tanzania liable to pay amounts due
under its equipment contract with TEL and the
Valambhias. According to the amended complaint,
“before [Tanzania] stopped paying [Valambhia], the
Ministry of Defence and the Bank [of Tanzania] paid
Valambhia amounts owed to him from the Ministry’s
Federal Reserve Bank of New York account.” Am.
Compl. ¶ 34 (J.A. 15). “Tanzania and its Ministry of
Defence acknowledged the Irrevocable Agreement in a
contract dated June 10, 1989,” the amended complaint
explains, and, “[s]hortly thereafter, the Ministry of
Defence and the Bank [of Tanzania] began to pay

App. 10
Valambhia some of the amounts owed to him under the
contract from the Ministry’s Federal Reserve Bank of
New York account.” Id. ¶ 15 (J.A. 9). Noting the
significance of a direct effect within the United States
for the inquiry under clause three, the amended
complaint asserts that the “making of payments
through a bank located in the United States alone
satisfies the direct-effects element of clause 3.” Id. ¶ 34
(J.A. 15).
We disagree. As an initial matter, the text of the
FSIA forecloses the Valambhias’ assertion that the
“making of payments through a bank located in the
United States alone satisfies” the third requirement.
Id. Not any nexus to the United States, at any point in
the course of dealing, will satisfy the direct-effect
requirement. Rather, a plaintiff must first identify an
“act outside the territory of the United States” and
allege that it “cause[d] a direct effect in the United
States.” 28 U.S.C. § 1605(a)(2). Correctly posed, the
question before us is therefore whether Tanzania’s use
of a New York bank account was a direct effect of the
High Court judgments and Tanzania’s subsequent
withholding of payment—the acts that the Valambhias
assert satisfy the first requirement.
Even construing the amended complaint and record
in the Valambhias’ favor, we fail to see how that
connection may be established here. Tanzania’s choice
to use a New York bank account at some point in the
past is not an “immediate consequence” of the High
Court’s entry of judgment in 1991 and 2001, nor even
of Tanzania’s subsequent withholding of payment. As
alleged, Tanzania’s use of the New York account took

App. 11
place only “before [Tanzania] stopped paying
[Valambhia],” Am. Compl. ¶ 34 (J.A. 15), and
specifically in the period “[s]hortly []after” the Ministry
of Defence acknowledged the Irrevocable Agreement in
June 1989, id. ¶ 15 (J.A. 9); see also, e.g., Valambhias
Br. 2, 5, 12 (reiterating this order of events). In their
briefs, the Valambhias imply that Tanzania may have
used the New York account when making payments
between 1986 and 1989 pursuant to the 1985 contract.
See, e.g., Valambhias Reply Br. 19. Be that as it may,
Tanzania’s earlier-in-time use of a New York bank
account cannot serve as an “immediate consequence” of
judgments and withholdings that occurred years later.
The Valambhias also argue that the record suggests
that Tanzania may have made an additional payment
to TEL and perhaps Valambhia as late as 2001. See,
e.g., Valambhias Reply Br. 1-2, 19, 21; Oral Arg. Rec.
9:57-10:12. But any such payments did not come from
the New York account of the Ministry of Defence, but
from the Bank of Tanzania’s Exchequer Account. See
Am. Compl. Ex. L at 5, 10 (J.A. 110, 115) (High Court
of Tanzania Ruling (10/1/2003)). In these
circumstances, Tanzania’s use of a New York bank
account cannot fairly be characterized as a “direct
effect” of the High Court judgments or Tanzania’s
subsequent failure to pay.
Even setting aside this question of timing, we doubt
that Tanzania’s use of the New York bank account
could constitute a direct effect when nothing about the
High Court judgments, nor the underlying agreements,
contemplated or suggested that Tanzania would use
that account. In relevant part, the Garnishee Order
states only that the “Governor of Bank of Tanzania Dar

App. 12
es Salaam” pay the accrued contract sum of $55 million
“from Government Accounts operated by the
Government of United Republic of Tanzania at your
bank.” Garnishee Order at 1 (J.A. 82). Expanding the
lens to encompass the underlying 1985 Tanzania-TEL
contract for military equipment and the 1989
Irrevocable Agreement is of no help as the New York
account is not contemplated by those instruments,
either. As we have stated in the context of breachof-contract actions proceeding under clause three, there
is “no direct effect where the foreign sovereign ‘might
well have paid’ its contract partner through a bank
account in the United States but ‘might just as well
have done so’ outside the United States.” Odhiambo v.
Republic of Kenya, 764 F.3d 31, 39 (D.C. Cir. 2014)
(quoting Goodman Holdings v. Rafidain Bank, 26 F.3d
1143, 1146-47 (D.C. Cir. 1994)). The same conclusion
follows here.
A comparison to the circumstances in Weltover
confirms the shortcomings of this alleged direct effect.
There, the Supreme Court examined whether
“Argentina’s unilateral rescheduling” of its bond
payments—the act abroad satisfying the first
requirement of clause three—“had a ‘direct effect’ in
the United States.” 504 U.S. at 617 (quoting 28 U.S.C.
§ 1605(a)(2)). In concluding that it had, the Court relied
on the fact that the plaintiffs “had designated their
accounts in New York as the place of payment, and
Argentina made some interest payments into those
accounts before announcing that it was rescheduling
the payments.” Id. at 619. “Because New York was
thus the place of performance for Argentina’s ultimate
contractual obligations,” the Court concluded that the

App. 13
“rescheduling of those obligations necessarily had a
‘direct effect’ in the United States: Money that was
supposed to have been delivered to a New York bank
for deposit was not forthcoming.” Id. The same cannot
be said in this case. Tanzania and the Valambhias had
no arrangement that called for Tanzania’s use of a New
York bank account or invited the Valambhias to
demand payment within the United States, and so no
payments that were “supposed to” have come from a
New York account were halted, or indeed affected in
any way, by the High Court’s judgments. Id.; see also,
e.g., Odhiambo, 764 F.3d at 40-41; Peterson, 416 F.3d
at 90-91.
The Valambhias reply by citing a variety of cases
they claim show that any involvement of a United
States bank account—either as a source or destination
of funds—satisfies the direct-effect requirement. See
Valambhias Br. 29-31. But those cases involve some
obligation, contractual or otherwise, to make payment
into a U.S. account, not merely the foreign sovereign’s
unilateral choice to make payments from a U.S.
account in the past. See, e.g., Keller v. Cent. Bank of
Nigeria, 277 F.3d 811, 818 (6th Cir. 2002), abrogated
on other grounds by Samantar v. Yousef, 560 U.S. 305
(2010). And they generally rely on multiple indicia of
direct effect in the United States, not only payment
within the United States. See, e.g., Devengoechea v.
Bolivarian Republic of Venezuela, 889 F.3d 1213, 1225
(11th Cir. 2018); Callejo v. Bancomer, S.A., 764 F.2d
1101, 1112 (5th Cir. 1985); SerVaas v. Republic of Iraq,
653 F. App’x 22, 24 (2d Cir. 2011).

App. 14
The Valambhias further argue that our
interpretation of the FSIA in Odhiambo requiring that
the place of performance be contractually specified
applies only to breach-of-contract actions and not to
recognition actions. Valambhias Br. 32 & n.6. But we
do not import Odhiambo’s rule here. Indeed, the FSIA
may require explication of a closer nexus to the United
States in the contract context, where the parties
themselves control the terms of the agreement, than for
other types of claims. But the Valambhias have not
explained how even a loose construction of the third
clause of the FSIA commercial activity exception could
support the conclusion that Tanzania’s previous and
optional use of a New York bank account constitutes a
direct effect or, as Weltover put it, an “immediate
consequence” in the United States of Tanzania’s
conduct abroad.
B. The
Valambhias’
Citizenship

Residence

and

Second, the Valambhias claim a direct effect
stemming from the family’s citizenship and residence
in the United States. To be sure, the High Court Decree
required Tanzania to pay the sum owed “direct to
[Valambhia] and his family.” High Court Decree at 2
(J.A. 80). The family therefore contends that because
they “moved to the United States in 1981 and became
United States citizens in 2001,” Tanzania’s “nonpayment of amounts due to United States citizens
under a contract and a judgment based on that contract
causes direct effects here.” Am. Compl. ¶ 34 (J.A. 15).
Once again, we conclude that this allegation of
direct effect is insufficient. We have squarely held that

App. 15
“harm to a U.S. citizen, in and of itself, cannot satisfy
the direct effect requirement.” Cruise Connections
Charter Mgmt. 1, LP v. Attorney General of Canada,
600 F.3d 661, 665 (D.C. Cir. 2010). And we have
further rejected the contention that “pay wherever you
are” scenarios in which the asserted direct effect in the
United States is simply that plaintiffs reside or are
citizens here, without more, satisfies this requirement.
Odhiambo, 764 F.3d at 39; see also, e.g., Peterson, 416
F.3d at 90-91; Goodman Holdings, 26 F.3d at 1146-47.
And in Odhiambo, we rejected the possibility that “U.S.
presence or U.S. citizenship alone suffices to create a
direct effect in the United States” because “the relevant
precedents would foreclose any such contention.” 764
F.3d at 40 (citing Cruise Connections, 600 F.3d at 665;
Peterson, 416 F.3d at 90-91).
The Valambhias reply that there is in fact
something more here that distinguishes this situation
from the “pay wherever you are” scenario. The
amended complaint alleges that Tanzania “knew that
the amounts owed under the Tanzanian Judgment and
contract were payable to Plaintiffs in the United
States,” and was “well aware that the Valambhia
family lived in the United States long before the
Tanzanian Judgment was entered.” Am. Compl. ¶ 35
(J.A. 15); see also id. ¶ 25 (J.A. 12). Based on
Tanzania’s knowledge of their residence, the
Valambhias therefore analogize this case to the facts in
de Csepel v. Republic of Hungary, where we held the
direct-effect requirement satisfied even though the
“complaint never expressly allege[d]” that any
obligation “was to occur in the United States,” because

App. 16
the foreign sovereign knew the plaintiffs lived here.
714 F.3d 591, 601 (D.C. Cir. 2013).
This case is materially distinct from de Csepel. In de
Csepel, as in Weltover, the foreign sovereign “promised
to perform specific obligations in the United States.” Id.
600-01. The plaintiffs alleged that the Hungarian
government had seized their family’s private art
collection during World War II, giving rise to a
bailment agreement to return the artwork after the
war to the U.S.-resident plaintiffs , but then had failed
to do so. Id. at 596. We concluded that the “direct
effect” requirement was met because it was “fairly
inferred from the complaint’s allegations that the
bailment contract required specific performance—i.e.,
return of the property itself—and that this return was
to be directed to [plaintiffs] Hungary knew to be
residing in the United States.” Id. at 601.
By contrast, this case involves no remedy of specific
performance or other immediate consequence in the
United States flowing from the Tanzanian judgment, so
no direct effect here. After all, the Valambhias could
have received payment into a bank account in
Tanzania, Ireland (home of TEL), the United States, or
indeed anywhere else in the world. The Valambhias
freely concede that “there is no indication in the record
whether Tanzania’s payments made from its New York
account went to an account in the United States,
Tanzania, or some other country.” Valambhias Reply
Br. 19 n.8. The record further shows that Devram
Valambhia was moving between Tanzania and the
United States during the relevant time period, and that
the Bank of Tanzania had addressed its May 1989

App. 17
acknowledgment of the Irrevocable Agreement to an
address in Dar Es Salaam. See J.A. 50; see also, e.g.,
Oral Arg. Rec. 5:42-6:12 (observation by counsel that
“Mr. Valambhia, from what we see in the record, was
in Tanzania and in the United States, at various times”
and so “very likely could have been in the United
States when payments were made”). Even when
pressed directly, counsel declined to state whether any
of the Valambhias had ever received a Tanzanian
payment in the United States on the judgment that
forms the gravamen of this case. See Oral Arg. Rec. at
4:48-5:22.
The difference between this case and de Csepel is
therefore clear. The bailment contract for return of the
Nazi-looted artwork in de Csepel “never envisioned
performance anywhere other than the United States.”
Odhiambo, 764 F.3d at 42. There is no similar
allegation regarding the judgments at issue here.
II. The Valambhias’ Remaining Arguments
We briefly address the Valambhias’ remaining
arguments. First, in a single paragraph of the amended
complaint, the Valambhias allege that clause two of the
FSIA commercial activity exception provides an
alternative path around Tanzania’s immunity here.
Under that clause, a foreign sovereign is not immune
from suit in the United States “based . . . upon an act
performed in the United States in connection with a
commercial activity of the foreign state elsewhere.” 28
U.S.C. § 1605(a)(2). As discussed above, the domestic
acts that the Valambhias reference in support of this
theory are Tanzania’s “payments through a domestic
bank” and its “withholding [of] payments due.” Am.

App. 18
Compl. ¶ 36 (J.A. 16). But those acts have little to do
with the recognition action that forms the basis of this
suit. An “action is ‘based upon’ the particular conduct
that constitutes the gravamen of the suit.” Sachs, 136
S. Ct. at 396 (internal quotation marks omitted). As the
Valambhias repeatedly tell us, the “gravamen of the
suit [is] recognition of a foreign judgment.” See
Valambhias Br. 2, 12, 25; see also Oral Arg. Rec.
11:34-11:36 (“[T]he gravamen of the suit is the
judgment”). Treating the payments from the Ministry
of Defence’s New York bank account as made “in
connection with” Tanzania’s commercial activity
elsewhere is a dead end because the Valambhia’s suit
here is not based on those payments.
Second, the Valambhias contend on appeal that the
district court made various legal errors, including in its
analysis of the relative burdens of establishing
jurisdiction, its application of the Supreme Court’s
recent decision in OBB Personenverkehr AG v. Sachs,
and its categorical conclusion that recognition actions
cannot satisfy clause three of the commercial activity
exception. See generally Valambhias Br. 13-24, 38-48.
But we do not rely on any of those assertedly erroneous
steps. We review Tanzania’s duly preserved claim de
novo, based on the allegations of the relevant complaint
and attachments. Because we “review the district
court’s judgment, not its reasoning,” and “may affirm
on any ground properly raised,” Nat’l Mall Tours of
Washington v. U.S. Dep’t of Interior, 862 F.3d 35, 40
(D.C. Cir. 2017) (internal quotation marks omitted),
our decision should not be taken to embrace aspects of
the district court’s analysis unnecessary to our
decision. We make no general pronouncements about

App. 19
recognition actions under the FSIA, for example, but
hold only that, for want of any identified direct effect in
the United States of the acts that form the gravamen
of the Valambhias’ suit, the allegations here do not
satisfy the requirements of the FSIA commercial
activity exception. Like the Second Circuit in
Transatlantic Shiffahrtskontor v. Shanghai Foreign
Trade Corp., we need not decide whether, as a
categorical matter, “any suit brought on a foreign
judgment—rather than on the conduct that underlies
that judgment—is too distant” to satisfy this exception.
204 F.3d 384, 390 (2d Cir. 2000).
* * *
For the foregoing reasons, we affirm the district
court’s dismissal of the amended complaint for lack of
subject matter jurisdiction.
So ordered.

App. 20

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-7040
[Filed: July 10, 2020]
_________________________________
VIPULA D. VALAMBHIA, ET AL.,
)
APPELLANTS
)
)
v.
)
)
UNITED REPUBLIC OF TANZANIA,
)
ET AL.,
)
APPELLEES
)
_________________________________)
September Term, 2019
FILED ON: JULY 10, 2020
Appeal from the United States District Court
for the District of Columbia
(No. 1:18-cv-00370)
Before: GARLAND, PILLARD, and KATSAS, Circuit
Judges
JUDGMENT
This cause came on to be heard on the record on
appeal from the United States District Court for the
District of Columbia and was argued by counsel. On
consideration thereof, it is

App. 21
ORDERED and ADJUDGED that the District
Court’s dismissal of the amended complaint for lack of
subject matter jurisdiction be affirmed, in accordance
with the opinion of the court filed herein this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Date: July 10, 2020
Opinion for the court filed by Circuit Judge Pillard.

App. 22

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 18-cv-370 (TSC)
[Filed: March 31, 2019]
_______________________________________
VIPULA D. VALAMBHIA, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
UNITED REPUBLIC OF TANZANIA, )
et al.,
)
)
Defendants.
)
_______________________________________)
MEMORANDUM OPINION
Plaintiffs Vipula D. Valambhia, Priscilla D.
Valambhia, Bhavna D. Valambhia, Punita D.
Valambhia, and Krishnakant D. Valambhia, bring this
action under the District of Columbia’s Uniform
Foreign-Country Money Judgments Recognition Act,
D.C. Code §§ 15-361 to 15-371, against Defendants
United Republic of Tanzania, the Bank of Tanzania,
and the Ministry of Defence and National Service, for
recognition and enforcement of a foreign money
judgment rendered in Tanzania against Defendants.

App. 23
Currently pending before the court is Defendants’
Motion to Dismiss, ECF No. 13, pursuant to Federal
Rule of Civil Procedure 12(b)(1) for lack of subject
matter jurisdiction and Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim upon which relief
can be granted.
For the reasons explained below, the court will
GRANT Defendants’ motion. Because the court finds
that it does not have subject matter jurisdiction, it need
not reach Defendants’ Rule 12(b)(6) argument.
I.

BACKGROUND

In 1985, the Tanzanian Ministry of Defence, on
behalf of Tanzania, ordered troop carriers, tanks, and
other military equipment as part of a contract with
Transport Equipment Ltd. (“TEL”), an Irish
corporation. Plaintiffs’ First Amended Complaint ¶ 12,
ECF No. 12 (“Am. Compl.”). The Plaintiffs’ decedent,
Devram Valambhia (“Valambhia”), was the Director
General of TEL. Id. Valambhia’s family has lived in the
United States since 1981. Id.
Tanzania paid the amounts due under the military
equipment contract through the Bank of Tanzania (“the
Bank”) from 1986 to 1989. Id. ¶ 13. After some dispute,
TEL and Valambhia entered into an Irrevocable
Agreement on January 4, 1989, stating that Valambhia
should receive 45% of the total amount due under the
contract. Id. ¶¶ 13–14. On June 10, 1989, Tanzania
signed a new contract acknowledging the Irrevocable
Agreement between TEL and Valambhia and pledging
to pay Valambhia in U.S. dollars the amount due to
him under the initial contract. Id. ¶ 15. Tanzania

App. 24
began to make payments to Valambhia from its Federal
Reserve Bank of New York account in the United
States. Id.
Tanzania then tried to challenge the validity of
these agreements through a long, highly-publicized
series of court cases that lasted over fourteen years.
See id. ¶¶ 17–23; Decl. of Meredith B. Parenti, Ex. F,
ECF No. 12-1, Richard Mgamba, “Revealed: The most
expensive legal suit in Dar’s history,” THE GUARDIAN,
June 28, 2009, at 1–2. In 1991, the High Court of
Tanzania entered a High Court Decree which stated
that Valambhia and his family were entitled to 45% of
the amount unpaid on the contract between Tanzania
and TEL. Am. Compl. ¶ 18. In 2001, after roughly a
decade of further litigation, the High Court of Tanzania
entered a Garnishee Order that required the Bank of
Tanzania to pay Valambhia the amount owed under
the High Court Decree. Id. ¶ 19. The Bank challenged
the validity of the Garnishee Order, but the High Court
found it to be proper. Id. ¶ 20. The Bank then appealed
this ruling in the Court of Appeal of Tanzania, the
country’s highest court. Id. ¶ 20. In 2003, the Court of
Appeal held that the Garnishee Order was “final and
conclusive” and denied the Bank any right to appeal.
Id.
Nonetheless, the Bank continued to refuse to
comply with the Garnishee Order, and the High Court
issued against the Bank of Tanzania an order to show
cause why it should not be held in contempt. Id. ¶ 21.
After rejecting the Bank’s argument regarding its
inability to pay the amounts due to Valambhia and his
family, the High Court held the Bank’s Governor in

App. 25
contempt and ordered him to pay a fine or serve a term
of imprisonment. Id. Valambhia died in Tanzania in
2005, id. ¶ 24, and the Bank has never paid his family,
id. ¶ 23.
The Valambhia family, Devram Valambhia’s sole
heirs, now files this suit under the D.C. Uniform
Foreign-Country Money Judgments Recognition Act,
D.C. Code §§ 15-361 to 15-371, to recognize and enforce
the foreign money judgment rendered in Tanzania. Id.
¶ 1.
II.

LEGAL STANDARD FOR RULE 12(B)(1)

A defendant may move to dismiss a complaint for
lack of subject matter jurisdiction under Fed. R. Civ. P.
12(b)(1). “It is the burden of the party claiming subject
matter jurisdiction to demonstrate that it exists.”
Georgiades v. Martin–Trigona, 729 F.2d 831, 833 n.4
(D.C. Cir. 1984) (citation omitted). The court
“assume[s] the truth of all material factual allegations
in the complaint and construe[s] the complaint
liberally, granting plaintiff the benefit of all inferences
that can be derived from the facts alleged, and upon
such facts determine[s] jurisdictional questions.”
American National Ins. Co. v. FDIC, 642 F.3d 1137,
1139 (D.C. Cir. 2011) (quotations marks and citations
omitted). A court “may consider materials outside the
pleadings in deciding whether to grant a motion to
dismiss for lack of jurisdiction.” Jerome Stevens
Pharm., Inc. v. FDA, 402 F.3d 1249, 1253 (D.C. Cir.
2005) (citation omitted).

App. 26
III.

ANALYSIS

The Foreign Sovereign Immunities Act, 28 U.S.C.
§ 1602 et seq. (“FSIA”) “entitles foreign states to
immunity from the jurisdiction of courts in the United
States, subject to certain enumerated exceptions.”
Saudi Arabia v. Nelson, 507 U.S. 349, 351 (1993)
(citations omitted). The FSIA provides the “sole basis
for obtaining jurisdiction over a foreign state in the
courts of this country.” Id. at 355. “Courts may hear a
case only if one of the [FSIA] exceptions applies
because subject-matter jurisdiction in any such action
depends on that application.” Simon v. Republic of
Hungary, 911 F.3d 1172, 1177 (D.C. Cir. 2018)
(quotation marks and citations omitted).
Plaintiffs concede that Defendants are foreign
sovereigns. Am. Compl. ¶¶ 5-7. Therefore, to establish
this court’s subject matter jurisdiction over Defendants,
Plaintiffs must demonstrate that one of the FSIA
exceptions to immunity applies. Relevant to this case
is the so-called “commercial activities exception.” See
28 U.S.C. §1605(a)(2).1 As the D.C. Circuit has noted,
1

The commercial-activities exception states:
A foreign state shall not be immune from the jurisdiction
of courts of the United States or of the States in any
case —
…
in which the action is based upon a commercial activity
carried on in the United States by the foreign state; or
upon an act performed in the United States in connection
with a commercial activity of the foreign state elsewhere;
or upon an act outside the territory of the United States in

App. 27
the commercial activities exception has three operative
clauses:
[T]he commercial activity exception . . . permits
a suit when “the action is based [1] upon a
commercial activity carried on in the United
States by the foreign state; or [2] upon an act
performed in the United States in connection
with a commercial activity of the foreign state
elsewhere; or [3] upon an act outside the
territory of the United States in connection with
a commercial activity of the foreign state
elsewhere and that act causes a direct effect in
the United States.”
Odhiambo v. Republic of Kenya, 764 F.3d 31, 34 (D.C.
Cir. 2014) (quoting 28 U.S.C. § 1605(a)(2) (alterations
in original)); see also OBB Personenverkehr AG v.
Sachs, 136 S. Ct. 390, 394 n.1 (2015) (“Section
1605(a)(2) contains three separate clauses.”).
Plaintiffs contend that this court has jurisdiction
pursuant to the second and third clauses of the
commercial activities exception. Am. Compl. ¶ 9.2 Both
clauses require that an action be “based upon” an act in

connection with a commercial activity of the foreign state
elsewhere and that act causes a direct effect in the United
States.
28 U.S.C. §1605(a)(2).
2

The parties agree that the first clause of the commercial
activities exception does not apply to this case. See Mem. Supp.
Defs.’ Mot. to Dismiss at 4, ECF No. 13-1; Pls.’ Mem. Opp’n. Mot.
to Dismiss at 7, ECF No. 15.

App. 28
connection with a commercial activity of the foreign
state.
In Saudi Arabia v. Nelson, an American doctor
brought a tort action against Saudi Arabia under the
first clause of the commercial-activities exception.
Nelson, 507 U.S. at 353-54. The Supreme Court held
that the phrase “based upon” in the first clause means
“those elements of a claim that, if proven, would entitle
a plaintiff to relief under his theory of the case.” Id. at
357 (citations omitted). Therefore, Nelson’s action was
not “based upon . . . a commercial activity carried on in
the United States” because the tort actions which
formed Nelson’s cause of action occurred in Saudi
Arabia, not the United States. Id. at 358. See OBB
Personenverkehr AG v. Sachs, 136 S. Ct. 390, 396
(2015) (“[A]n action is ‘based upon’ the ‘particular
conduct’ that constitutes the ‘gravamen’ of the suit.”).
In Odhiambo, the D.C. Circuit held that Nelson’s
definition of “based upon” in the first clause applies to
the second clause as well. 764 F.3d at 37-38. The Court
explained that “the virtually identical statutory text
and structure of clauses one and two lead us to
conclude that ‘based upon’ means the same thing in
both clauses.” Id. at 37 (citations omitted). Accordingly,
the Court held that “a suit against a foreign sovereign
may proceed under clause two only if the ‘act performed
in the United States in connection with a commercial
activity of the foreign state elsewhere’ establishes a
fact without which the plaintiff will lose.” Id. at 38
(quoting Nelson, 507 U.S. at 357).
The parties agree that the definition of “based upon”
is the same in all three clauses of commercial activities

App. 29
exception. See Pls.’ Mem. Opp’n. Mot. to Dismiss at 14,
ECF No. 15; Reply Mem. Supp. Defs.’ Mot. to Dismiss
at 3 n.1, ECF No. 17. In Odhiambo, the D.C. Circuit
concluded that Odhiambo’s action under the third
clause was “based . . . upon an act outside the territory
of the United States in connection with a commercial
activity of the foreign state elsewhere,” because in
Odhiambo’s suit for breach of contract, the breach was
a commercial activity of the foreign government and
constituted a fact without which Odhiambo would lose.
764 F.3d at 38.
The question in this case is whether a court, in
determining if a claim for recognition of a foreign
judgment is “based upon” an act performed in
connection with a commercial activity, may consider
the underlying commercial conduct that gave rise to
the foreign judgment. Odhiambo and Nelson compel
the conclusion that the answer is no. The elements of
a claim for the recognition of a foreign judgment are:
1) the foreign court had personal and subject matter
jurisdiction over the defendant and underlying subject
matter; 2) the foreign court had sufficient due process
safeguards; and 3) a fully enforceable judgment exists
in the foreign country. See D.C. Code §§ 15-363(a),
15-364(b). Therefore, any underlying commercial
conduct alleged in Plaintiffs’ Complaint is not an
“element[] of a claim” for recognition of a foreign
judgment, Nelson, 507 U.S. at 357, or “a fact without
which the plaintiff will lose,” Odhiambo, 764 F.3d at
38.
Plaintiffs contend that this court should follow
guidance from an unpublished Second Circuit decision,

App. 30
which states that “[i]n applying the commercial activity
exception to an action for recognition of a foreign
judgment, we look to the underlying conduct that gave
rise to the judgment.” SerVaas Inc. v. Republic of Iraq,
653 Fed. App’x 22, 23-24 (2d Cir. 2011) (citation
omitted). However, SerVaas relied on a prior Second
Circuit case, International Housing Ltd. v. Rafidain
Bank Iraq, 893 F.2d 8 (2d Cir.1989), which was decided
before the Supreme Court’s decision in Nelson. In fact,
the Second Circuit has acknowledged that SerVaas “is
in some tension with a literal reading of the definition
of ‘based upon’ used by the Supreme Court in Nelson.”
Transatlantic Shiffahrtskontor GmbH v. Shanghai
Foreign Trade Corp., 204 F.3d 384, 389 n.4 (2d Cir.
2000).
This court recognizes that its literal application of
the meaning of “based upon” from Odhiambo and
Nelson, neither of which involved an action to enforce
a judgment, effectively makes a dead letter of an action
to recognize a foreign court judgment brought against
a foreign sovereign under the commercial activities
exception to the FSIA.3 Nonetheless, a faithful
interpretation of Odhiambo and Nelson requires this
court to dismiss the complaint for lack of subject
matter jurisdiction.
IV.

CONCLUSION

For the foregoing reasons, Defendants’ Motion to
Dismiss, ECF No. 13, is GRANTED.

3

A foreign state may waive its immunity. See 28 U.S.C.
§ 1605(a)(1).

App. 31
A corresponding Order will issue separately.
Date: March 31, 2019
Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

App. 32

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 18-cv-370 (TSC)
[Filed: March 31, 2019]
_______________________________________
VIPULA D. VALAMBHIA, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
UNITED REPUBLIC OF TANZANIA, )
et al.,
)
)
Defendants.
)
_______________________________________)
ORDER
For the reasons set forth in the court’s
Memorandum Opinion dated March 31, 2019, ECF No.
18, it is hereby
ORDERED that Defendants’ Motion to Dismiss,
ECF No. 13, is GRANTED.
This is a final and appealable Order.
The Clerk of the Court is directed to close this case.

App. 33
Date: March 31, 2019
Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

App. 34

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-7040
[Filed: August 28, 2020]
____________________________________
Vipula D. Valambhia, et al.,
)
)
Appellants
)
)
v.
)
)
United Republic of Tanzania, et al.,
)
)
Appellees
)
____________________________________)
September Term, 2019
1:18-cv-00370-TSC
Filed On: August 28, 2020
BEFORE:

Srinivasan, Chief Judge; Henderson,
Rogers, Tatel, Garland, Griffith,
Millett, Pillard, Wilkins, Katsas, and
Rao, Circuit Judges
ORDER

Upon consideration of appellants’ petition for
rehearing en banc, and the absence of a request by any
member of the court for a vote, it is

App. 35
ORDERED that the petition be denied.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk

App. 36

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-7040
[Filed: August 28, 2020]
____________________________________
Vipula D. Valambhia, et al.,
)
)
Appellants
)
)
v.
)
)
United Republic of Tanzania, et al.,
)
)
Appellees
)
____________________________________)
September Term, 2019
1:18-cv-00370-TSC
Filed On: August 28, 2020
BEFORE:

Garland, Pillard, and Katsas, Circuit
Judges
ORDER

Upon consideration of appellants’ petition for panel
rehearing filed on August 10, 2020, it is
ORDERED that the petition be denied.

App. 37
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail
Deputy Clerk

